No.
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
JOSEPH A. HOLLAHAN, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
______________________________________
On Petition For Writ Of Certiorari
To The Supreme Court Of Illinois
______________________________________
PETITION FOR WRIT OF CERTIORARI
______________________________________
JAMES E. CHADD
State Appellate Defender
THOMAS A. KARALIS
Counsel of Record
Deputy Defender
Office of the State Appellate Defender
Third Judicial District
770 E. Etna Rd.
Ottawa, IL 61350
(815) 434-5531
3rdDistrict@osad.state.il.us
COUNSEL FOR PETITIONER
Of Counsel:
Santiago A. Durango
Assistant Appellate Defender

QUESTION PRESENTED FOR REVIEW
From time to time, deliberating juries must examine evidence in the courtroom
that could have been examined in private in the jury room but for obstacles with using
the jury room. For example, a jury may need to deliberate in the courtroom (or other
suitable room) because (i) the evidence the jury wishes to examine is in the courtroom
and is too large to remove to the jury room, or (ii) playback equipment for a recording
in evidence is available only in the courtroom, or (iii) the air-conditioning is not
working in the jury room, or (iv) the jury room is under repair.
A number of federal and state courts have endorsed closing the courtroom for
privacy when a jury must deliberate in the courtroom for these reasons. The court
below joined other courts that have taken the opposite view in the belief that the right
to private jury deliberations applies only in the jury room. These courts permit the
presence of non-jurors in the courtroom, and the supervision and restriction of the jury
during its examination of the evidence in the courtroom, even if the evidence could
have been examined in private in the jury room but for obstacles with using the jury
room.
The question presented is:
Does the right to private and secret jury deliberations apply only in the jury
room?

i

TABLE OF CONTENTS
Question Presented for Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Opinions Below. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statement of Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Reasons for Granting the Writ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
I.

THE LOWER COURTS ARE DIVIDED ON THE QUESTION OF
WHETHER THE RIGHT TO PRIVATE AND SECRET JURY
DELIBERATIONS APPLIES ONLY TO DELIBERATIONS THAT
ARE HELD IN THE JURY ROOM. . . . . . . . . . . . . . . . . . . . . . . . . . . 9

II.

THIS CASE IS A SUITABLE VEHICLE FOR THE COURT TO
RESOLVE THE QUESTION PRESENTED. . . . . . . . . . . . . . . . . . 15

III.

THE QUESTION PRESENTED IS IMPORTANT AND WILL
RECUR. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

IV.

THE DECISION BELOW IS INCORRECT. . . . . . . . . . . . . . . . . . . 20

Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
INDEX TO APPENDIX
Appendix A – State Supreme Court Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
Appendix B – State Appellate Court Opinion. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14a

ii

TABLE OF AUTHORITIES
Cases:

Page

Benna v. Reeder Flying Serv., Inc., 578 F.2d 269 (9th Cir. 1978) . . . . . . . . . . . 11, 22
Flanagan v. State, 368 Ark. 143 (Ark. 2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
People v. Hollahan, 2020 IL 125091 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
People v. Hollahan, 2019 IL App (3d) 150556. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
People v. Manuel, 294 Ill. App. 3d 113 (1st Dist. 1997) . . . . . . . . . . . . . . . . . . . . . . 11
People v. Montes, 2013 IL App (2d) 111132. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
People v. Walker, 150 Cal. App. 2d 594, 310 P.2d 110 (1957) . . . . . . . . . . . . . . . . . 12
Richey v. State, 426 N.E.2d 389 (Ind. 1981) . . . . . . . . . . . . . . . . . . . . . . . . . 10, 13, 22
State v. Boag, 104 Ariz. 362 (Ariz. 1969) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
State v. Castellanos, 132 Wash. 2d 94 (Wash. 1997) . . . . . . . . . . . . . . . . . . . . . . . . 12
State v. Cheloha, 25 Neb. App. 403 (Neb. App. 2018). . . . . . . . . . . . . . . . . . . . . . . . 11
State v. Davidson, 509 S.W.3d 156 (Tenn. 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
State v. Jones, 102 A.3d 694 (Conn. 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
State v. Magnano, 181 Wash. App. 689 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 21
State v. Reyes, 308 P.2d 182, 209 Or. 595 (Or. 1957) . . . . . . . . . . . . . . . . . . . . . 11, 12
Thorne v. State, 174 So. 3d (Fla. Dist. Ct. App. 2015) . . . . . . . . . . . . . . . . . . . . 11, 12
United States v. Atkinson, 297 U.S. 157 (1936) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Chadwell, 798 F.3d 910 (9th Cir. 2015) . . . . . . . . . . . . . . . . . . . . . 11
United States v. Hofer, 995 F.2d 746 (7th Cir. 1993) . . . . . . . . . . . . . . . . . . . . . . . . 12
United States v. Olano, 507 U.S. 725 (1993) . . . . . . . . . . . . . . . . . . . . . . . 9, 14, 21, 22
Statute:
28 U.S.C. § 1257(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Other Authorities:
Diane E. Courselle, Struggling with Deliberative Secrecy, Jury Independence, and Jury
Reform, 57 S.C.L. REV. 203 (2005). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
iii

No.
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
JOSEPH A. HOLLAHAN, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
______________________________________
On Petition For Writ Of Certiorari
To The Supreme Court Of Illinois
______________________________________
Petitioner Joseph A. Hollahan respectfully petitions this Court for a writ of
certiorari to review the judgment below.
OPINIONS BELOW
The published opinion of the Supreme Court of Illinois reversing the Appellate
Court of Illinois, and affirming the Circuit Court of Illinois, is reported at 2020 IL
125091, and is attached as Appendix A. The published opinion of the Appellate Court
of Illinois reversing Joseph Hollahan’s conviction, including a dissenting opinion, is
reported at 2019 IL App (3d) 150556, and is attached as Appendix B.
JURISDICTION
On September 24, 2020, the Supreme Court of Illinois issued its opinion
reversing the Appellate Court of Illinois, and affirming the Circuit Court of Illinois. No
petition for rehearing was filed. The jurisdiction of this Court is invoked pursuant to
28 U.S.C. § 1257(a).

-1-

STATEMENT OF THE CASE
1. At about midnight on August 29, 2015, Petitioner Joseph Hollahan was
driving an acquaintance home when he was stopped by Illinois State Trooper Timothy
Davis in Kankakee, Illinois. App. 15a. Davis testified at Petitioner’s jury trial that he
stopped Petitioner because: (i) he saw Petitioner’s vehicle start to enter a left turn lane
and then jerk back into its lane; (ii) Petitioner’s rear license plate light was not
operational and had a plastic cover on it; (iii) Petitioner drove onto a double yellow line,
then straddled a lane divider line; (iv) and Petitioner failed to yield to a fire truck that
was flashing its emergency lights. App. 15a. Trooper Davis added that Petitioner did
not stop immediately after Davis turned on his flashing lights.
During the stop, Davis administered three field sobriety tests. App. 16a.
Petitioner failed the tests, and was arrested. App. 14a, 16a. All of these events were
audiovisually recorded by a dash cam in Davis’s patrol car (video). A redacted version
of the video containing only admissible evidence was copied to a digital versatile disc
(DVD), and the 12 minute video was played to the jury during the State’s case-in-chief.
App. 16a.
Petitioner testified in his own behalf and related that: (i) he jerked his car
because he was giving his passenger a ride to an unfamiliar address, and he was about
to make a wrong turn; (ii) he did not yield to the fire truck because the fire truck had
just “whipped” around the corner, giving Petitioner no time to react; and (iii) that he
pulled over right away when he saw the police lights. App. 16a.
Shortly after the jury retired to deliberate, it asked to rewatch the video. No
objection was voiced to the jury’s request by either party, and the trial court granted
the request. The video had to be viewed in the courtroom because the court did not

-2-

have the “arrangement” necessary to allow the jury to view the video in the jury room.
On its own, the court allowed Petitioner, the attorneys, and two alternate jurors to
remain in the courtroom while the jury watched the recording. Petitioner’s counsel did
not object to this procedure.
Before the jury was brought back into the courtroom, the court admonished
Petitioner and the attorneys that while the jury watched the video, “[n]o one will have
any conversation.” App. 2a. When the jury was brought back into the courtroom, the
trial court addressed the jurors, stating:
“Please come in and have a seat, we will not be talking to you other than
to get the video, period . . . . The jury has requested to see the video
again. We do not have an arrangement to show it to you in your
deliberation room. I have instructed everyone to not say a word and we
will play the video for you. If you need to have the sound adjusted or
anything that we can do, all right?” App. 2a-3a, 17a.
After watching the video in silence, the jury returned to the jury room. Less than
an hour later, the jury found Petitioner guilty of aggravated driving under the
influence of alcohol. App. 2a, 18a. Petitioner was sentenced to a one-year term of
imprisonment. App. 18a.
2. Petitioner challenged his conviction on direct appeal. He argued, in relevant
part, that the trial court committed plain error when, in response to the jury’s request
during deliberations to view the video for a second time, the trial court, had the jury
watch the video in the courtroom in silence, and while the court, the Petitioner, the
attorneys, and two alternate jurors were present. Petitioner argued the trial court
should have allowed the jury to watch the video by itself in a closed courtroom so it
could pause and rewind the video as necessary, and deliberate in private while doing
so. App. 14a.

-3-

Petitioner also argued that by forcing the jury to watch the video in public in a
manner in which it could not deliberate, the trial court incorrectly imposed the
principles that guarantee a public trial on a situation where these principles do not
apply. Lastly, Petitioner argued the jury’s request to rewatch the video showed the case
was closely balanced, and that he was therefore prejudiced by the intrusion into the
jury’s deliberations. App. 28a-29a. In response, the State argued the trial judge had
discretion to supervise and restrict the deliberating jury’s review of evidence in the
courtroom, and, with no citation to authority, that the trial judge did not possess
authority to close the courtroom (State’s Appellate Court Brief at 2-3, 8-11).
A divided three member panel of the Appellate Court of Illinois reversed
Petitioner’s conviction, and remanded the cause for a new trial. The majority found
that the “presence of the trial court, the defendant, the prosecutor, and defense counsel
during jury deliberations in this case clearly inhibited the jurors’ deliberations and
restrained their freedom of expression and action.” App. 21a. The majority added that
“[a]ny reasonable doubt on this question was removed by the trial court’s statement to
the jury” that it was to remain silent while watching the video. App. 21a-22a. The
majority reasoned that this statement by the trial judge had improperly interfered
with the jury’s deliberations because:
“This statement conveyed several things to the jury. First, it suggested
that no one (including any juror) was to speak while the video was being
played. Although the trial court did not explicitly bar the jurors from
speaking, the court’s statement to the jury created the impression that
the video would be played in silence, and the court did not explicitly give
the jurors permission to break that silence by discussing the video while
it was being played. In addition, the trial court’s statement informed the
jurors that they would not have the ability to control the playing of the
video. The trial court told the jury that ‘we will play the video for you’ and
suggested that ‘we’ (not the jurors themselves) could adjust the sound if
necessary. The court did not give the jurors the opportunity to pause the
video or replay any parts they might have wanted to view or discuss in
-4-

greater detail. This further inhibited the jury’s deliberative process. In
sum, the procedure employed by the trial court effectively precluded the
jurors from engaging in any deliberations while the video was being
shown and likely limited their ability to focus sufficiently on the
particular portions of the video that gave them concern.” App. 22a.
The majority also rejected the contention advanced by other Illinois appellate
courts that replaying a video for a silent jury during deliberations in the presence of
non-jurors was not error because it was no different than playing the video under
identical circumstances during the trial. App. 24a-25a. The majority reasoned that “a
jury’s viewing of a video recording during trial is critically different from its viewing
of that same recording during deliberations [because, unlike] . . . public trials, jury
deliberations must occur in privacy and secrecy.” App. 25a (emphasis in original). The
majority added that “[i]f a trial court fails to protect the jurors from such influences (as
in this case), it commits reversible error.” App. 25a.
The majority also disagreed with the contention put forward by other Illinois
appellate courts that when the judge chooses to have a recording replayed in the
courtroom during deliberation, the court, parties, and counsel must be present to view
or hear the evidence, and the trial judge must instruct the jury not to discuss the
evidence while in the courtroom. App. 26a. The majority stated that “if, for some
reason, a video . . . recording must be played for a deliberating jury in the courtroom,
the jury should view the video in private, not in the presence of the parties, their
attorneys, or the trial judge.” App. 27a
The majority added that:
“[W]e find it difficult to believe that, with all of the digital and other
‘user-friendly’ technology currently available (such as laptop computers
and tablets, to name only a few), a trial court cannot arrange for the jury
to view video or audio evidence in the jury room without risking the
destruction of evidence or other technical difficulties. The fact that this
problem recurs so often in this State is inexplicable. In our view, if a trial
-5-

court decides to grant a jury’s request to review audio or video evidence
during deliberations, the only acceptable practice is to arrange for the
jury to view the evidence at issue in private, preferably by bringing a
laptop, tablet, or some similar device into the jury room. . . . But even if,
for some reason, a video or audio recording must be played for a
deliberating jury in the courtroom, the jury should view the video in
private, not in the presence of the parties, their attorneys, or the trial
judge.” App. 26a-27a.
The majority further disagreed with the contention advanced by other Illinois
appellate courts that assumes that “anything that occurs in the courtroom, even jury
deliberations, is a ‘court proceeding’ requiring the presence of the judge and the
parties.” App. 27a. The majority explained that:
“[J]ury deliberations must be conducted privately and in secret so as to
insulate the jury from improper influence. (Citation omitted). The parties
have no right to be present for such deliberations, regardless of where
they occur. The mere fact that a portion of jury deliberations occurs in the
courtroom does not transform those deliberations into a public trial
proceeding.” App. 27a.
The majority emphasized that “once a trial court decides to grant the jury’s
request [to review evidence in the courtroom], the jury should be allowed to view any
such evidence in private because the viewing constitutes a part of the jury’s
deliberations.” App. 28a.
This issue was not preserved for review in the trial court. Therefore, Petitioner
argued in the Illinois appellate court that review was warranted under the Illinois
plain error rule which is “not significantly different” than the federal plain error rule.
App. 6a-7a. The majority reasoned that, “having the jury watch the video in the
courtroom in the presence of the trial court, the prosecutor, the defendant, and defense
counsel” was plain and obvious error because this intrusion violated the “basic
principle of our justice system that jury deliberations shall remain private and secret.”
App. 20a.

-6-

The appellate court majority found that the error was prejudicial because the
intrusion affected the jury’s deliberations and thereby its verdict. App. 20a-21a. The
majority explained that:
“[I]t is hard to imagine a more intrusive, more chilling presence in the
deliberations than the opposing parties—the defendant with his attorney
and the State in the person of the State’s Attorney—and the trial judge.”
(Citation omitted). The State’s attorney, the defendant, and the
defendant’s counsel each has a direct interest in the outcome of the
litigation. Moreover, the trial court serves as an authoritative figure who
presides over the litigation. The presence of these parties during jury
deliberations is inherently intimidating to jurors and would almost
certainly have inhibited their deliberations while the video was being
played. It is extremely unlikely that any juror would have felt free to
discuss the details of the video and its possible impact on his or her
decision in the presence of these parties.” App. 21a.
The majority added that “[a]ny reasonable doubt on this question was removed
by the trial court’s statement to the jury” that it was to remain silent while watching
the video, which “effectively precluded the jurors from engaging in any deliberations
while the video was being shown and likely limited their ability to focus sufficiently on
the particular portions of the video that gave them concern.” App. 21a-22a.
The appellate court majority also found that the intrusive procedure employed
by the trial court amounted to structural error because “[a]nything that intrudes upon
the privacy of jury deliberations and impedes or inhibits impedes the jurors’ freedom
of expression and action during deliberations in this manner renders the trial an
unreliable means of determining guilt or innocence.” App. 28a.
The dissent would have found that no error occurred because “the mode and
manner in which a trial court allows a jury to review a piece of evidence during jury
deliberations falls within the scope of the court’s . . . discretion” and is reversible only
if prejudicial to the defendant. App. 5a, 30a-31a. The dissent would have found that no

-7-

prejudicial communication or information reached the jury, and would have therefore
affirmed. App. 32a-33a.
3. The Supreme Court of Illinois allowed discretionary review and reversed the
appellate court in a unanimous decision authored by the Honorable Lloyd A. Karmeier.
There, Petitioner expressly acknowledged numerous times in his brief that limited
situations exist where court supervision is necessary when a deliberating jury must
examine video evidence in the courtroom (Petitioner’s Ill. S. Ct. Brief at 9, 15, 18). For
example, so the content of the video is not viewed out of context, so the video does not
overemphasize evidence, so the jury does not inadvertently view matters it should not
consider, so the defendant is not otherwise prejudiced, or so the jury does not
inadvertently damage or destroy the evidence. Id. Petitioner argued that when the
foregoing circumstances are not present, as in this case, defendants possess a right to
have the jury deliberate in private in the courtroom with no outside interference.
The Supreme Court of Illinois disagreed with Petitioner, stating that there is an
“understanding” that private deliberations can only be conducted in the jury room “and
no other.” App. 12a. The court further found that no error arose from the procedure
employed by the trial court because the trial court possessed inherent discretion to
supervise the review of the video in the courtroom, and because no interference with
the jury’s deliberation occurred since the jury’s deliberation had been temporarily
suspended while the jurors watched the video in silence. App. 6a, 10a-12a. The court
further found that, even if error occurred, Petitioner was not prejudiced by the
procedure because the non-jurors who were present did not participate in the
deliberations. App. 10a-11a, 12a-13a.

-8-

REASONS FOR GRANTING THE WRIT
I.

THE LOWER COURTS ARE DIVIDED ON THE QUESTION OF
WHETHER THE RIGHT TO PRIVATE AND SECRET JURY
DELIBERATIONS APPLIES ONLY TO DELIBERATIONS THAT
ARE HELD IN THE JURY ROOM.

In United States v. Olano, 507 U.S. 725 (1993), this Court considered the
question of whether the presence of alternate jurors in the jury room during
deliberations constituted presumptively prejudicial error. Id. at 737. This Court began
its analysis of the question with an affirmation of “the cardinal principle that the
deliberations of the jury shall remain private and secret.” Id. at 737. This Court
decided that the presence of non-jurors during deliberations will constitute
presumptively prejudicial plain error only when the non-deliberating outside persons
“either participated in the jury’s deliberations or ‘chilled’ deliberation by the regular
jurors.” Id. at 739. Since the alternate jurors in Olano remained “orally silent” and did
not otherwise indicate their views or attitude,” this Court found that their presence in
the jury room “did not operate as a restraint upon the regular jurors’ freedom of
expression and action,” and was therefore no different than “the presence in the
juryroom of an unexamined book which had not been admitted into evidence.” Id. at
739. This Court concluded that no presumptively prejudicial error occurred under these
circumstances Id. at 738, 741. This Court explained that no prejudice occurred because
no harm resulted from the benign presence of the alternate jurors in the jury room. Id.
at 738, 741. Therefore, reversal would have been pointless. Id. This Court suggested,
however, that if the error had been prejudicial – because a non-deliberating outside
person influenced the jury’s deliberations, and thereby its verdict – then a substantial
right would have been affected justifying plain error correction under United States v.
Atkinson, 297 U.S. 157, 160 (1936). Id. at 737, 741.
-9-

There is now a split in the lower courts as to whether the principle that jury
deliberations shall remain private and secret applies only to jury deliberations that are
held in the jury room. The Supreme Court of Illinois has stepped into the fray with its
ruling that a trial court has inherent power to supervise and restrict the jury when it
deliberates outside the jury room. Other courts have taken the opposite view, however,
and endorsed the use of closed courtrooms for private jury deliberations when the
evidence could have been reviewed in the privacy of the jury room, but had to be
reviewed in the courtroom due to obstacles with using the jury room to examine the
evidence. These courts have done so to ensure a reliable means of determining guilt or
innocence.
For example, the Supreme Court of Indiana endorsed the use of a closed
courtroom for private jury deliberations in Richey v. State, 426 N.E.2d 389 (Ind. 1981).
There, the jury had to relocate to the closed courtroom “because the air conditioning
system in the courthouse was broken.” Id. at 397. The court observed that what
mattered was not the specific location where the jury deliberated. Id. Instead, what
mattered was that the jury deliberations be conducted in a private place. Id.
The Supreme Court of Arizona also endorsed the use of a closed courtroom for
private jury deliberations in State v. Boag, 104 Ariz. 362, 368-69 (Ariz. 1969). No
explanation was provided as to why deliberation was conducted in the courtroom, but
the defendant argued it was error to allow jury deliberation in the courtroom because
the courtroom contained law books and a telephone. Id. Similarly, the Ninth Circuit
endorsed the use of a closed courtroom for private jury deliberations when some of the
deliberations had to be held in the courtroom because some exhibits, a large propeller

-10-

and engine parts, were too large to remove to the jury room. Benna v. Reeder Flying
Serv., Inc., 578 F.2d 269, 271 (9th Cir. 1978).
In State v. Magnano, 181 Wash. App. 689 (2014), on facts analogous to the facts
of this case, the Court of Appeals of Washington held that jury deliberations in a
courtroom that was closed, so the jury could review a 9-1-1 recording, did not violate
the defendant’s right to a public trial. Magnano, 181 Wash. App. at 692-700. There, the
trial judge characterized the closed door proceeding as a “continuation of the
deliberations.” Magnano, 181 Wash. App. at 692.
Furthermore, the nature of the evidence at issue in this case, i.e., a video
recording, does not automatically require that a deliberating jury examine the evidence
under the court’s supervision or with restrictions. A rationale for allowing a
deliberating jury to review recordings without restrictions is that, in general,
recordings should not be treated any differently than other evidentiary exhibits. State
v. Reyes, 308 P.2d 182, 196, 209 Or. 595, 635-36 (Or. 1957); People v. Manuel, 294 Ill.
App. 3d 113, 126 (1st Dist. 1997). Under this rationale, lower courts have allowed
deliberating juries to privately review admitted video recordings without restrictions
or supervision. See, e.g., Flanagan v. State, 368 Ark. 143, 162-68 (Ark. 2006); State v.
Cheloha, 25 Neb. App. 403, 407-08 (Neb. App. 2018); Thorne v. State, 174 So. 3d 477,
478-79 (Fla. Dist. Ct. App. 2015); People v. Gingles, 2014 COA 163, ¶¶ 9-18, 350 P.3d
968 (Colo. App. 2014). Likewise, federal courts have allowed deliberating juries to
privately review admitted video recordings without restrictions or supervision. See,
e.g., United States v. Chadwell, 798 F.3d 910, 914 (9th Cir. 2015).
In the analogous situation of admitted audio recordings, a number of decisions
have found that, under the right circumstances, such recordings may be reviewed in

-11-

private by a deliberating jury without supervision or restrictions. For example, in
United States v. Hofer, 995 F.2d 746 (7th Cir. 1993), the Seventh Circuit concluded that
it had not been unfair to allow the jury during deliberations to review audio tapes
without court supervision. Id. at 749. See also State v. Castellanos, 132 Wash. 2d 94,
100-01(Wash. 1997); Reyes, 308 P.2d at 196, 209 Or. at 635-37.
Indeed, the right to private jury deliberations has been deemed to be so
inherently important that as long ago as 1957 playback devices were being brought to
jury rooms to allow deliberating juries to review audio recordings in private and
without restrictions. See People v. Walker, 150 Cal. App. 2d 594, 602-03, 310 P.2d 110
(1957); Reyes, 209 Or. at 636. This practice is still being followed. See People v. Montes,
2013 IL App (2d) 111132, ¶ 47 (computer and the audio recording sent to deliberating
jury, bailiff directed to instruct jury on how to use computer for playback); Thorne, 174
So. 3d at 478 (deliberating jury furnished with laptop computer containing defendant’s
videotaped statements).
The Seventh Circuit has explained that a deliberating jury’s private review of
recordings without supervision or restrictions is important because it may be
“necessary for the jury to play the tapes repeatedly as its deliberations progress[]” in
order to perform its duty conscientiously. Hofer, 995 F.2d at 749. In harmony with this
reasoning, the appellate court in this case explained that having to view the video in
court under supervision and with restrictions deprived the jury of the “opportunity to
discuss the video as they were viewing it or to pause or replay any portions of the video
that they found of particular importance.” App. 23a.
As shown by these federal and state decisions, since a closed courtroom is in
essence a relocated jury room, or annex to the jury room, allowing juries to deliberate

-12-

in closed courtrooms does not offend the constitution or procedural norms. Instead, the
use of closed courtrooms for private jury deliberations, when it is necessary due to
obstacles with use of the jury room for private review of the same evidence, ensures a
reliable means of determining guilt or innocence. Ultimately what matters is that jury
deliberations be conducted in a private place, and not the location of the room where
the deliberations are conducted. Richey, 426 N.E.2d at 397.
The opposite view, articulated in numerous lower court decisions, finds that
under a court’s inherent powers to oversee evidentiary matters, it is, in effect, never
error to supervise jury deliberations which must be conducted in the courtroom,
regardless of the circumstances. App. 10a. For example, in State v. Davidson, 509
S.W.3d 156 (Tenn. 2016), the Supreme Court of Tennessee surveyed the law and stated
that a deliberating “jury’s viewing of [video] evidence in the open courtroom does not
necessarily violate the privacy of jury deliberations.” Id. at 202. In that case, the
deliberating jury reviewed a video of defendant’s statement, in open court, with
spectators present. Id. at 201-02. Everyone was admonished to remain silent. Id. at
201.
Notably, in its opinion, the Supreme Court of Tennessee cited to a case from the
Criminal Court of Appeals of Tennessee that observed that “if the jury must review
evidence in the courtroom, the better practice is for the court officer to bring the jury
into the courtroom without the presence of the trial court and counsel.” Id. at 202-03.
Another Tennessee Court of Appeals decision noted in the opinion criticized a decision
of a trial court which had allowed the deliberating jury to view a video in open court,
with the defendant and counsel present, rather than instructing the jury on the

-13-

operation of the equipment and then leaving the jury alone in the courtroom to view
the video. Id. at 203.
On facts somewhat analogous to the facts of this case, in State v. Jones, 102 A.3d
694 (Conn. 2014), the Supreme Court of Connecticut, ruled, relying on Connecticut law,
that the trial court properly exercised its discretion by requiring the jury to review a
video in open court because of equipment issues. Id. at 701. The concurring Justice
stated that the video should have been given to the jury to review in the privacy of the
jury room but agreed with the majority’s result because the error had been harmless
due to the strength of the State’s other evidence, and the numerous times the video was
shown during the trial. Id. at 705, 707-08 (McDonald, J., concurring).
An apparent and recurring flaw with these decisions is their failure to offer any
justification, other than the court’s inherent power to oversee evidence, for stripping
a defendant of the right to private jury deliberations when evidence that could have
been examined in private in the jury room, has to be examined in another room that
can be closed for privacy. No such justification exists. Certainly, this Court’s statement
in Olano , that “deliberations of the jury shall remain private and secret,” does not
limit application of the right to deliberations that are held in the jury room. Olano, 507
U.S. at 737.
The flaw with these decisions is further exposed by that fact that, had the jury
been able to examine the evidence in the jury room, the trial judge’s inherent authority
would not have permitted intrusion into the jury’s deliberation. The fact that a jury has
to relocate to another private room should not change this understanding. As aptly
noted by the Appellate Court of Illinois in this case, the parties have no right to be
present at private jury deliberations, “regardless of where they occur.” App. 27a.

-14-

Indeed, if the right to private jury deliberations is deemed to apply only in the jury
room, the importance of the location of where the jury deliberates will be elevated over
the importance of the right itself. Such a principle would reveal an insufficient
appreciation of the right at stake which has existed since at least “the mid-1300s” and
is, thus, a deeply rooted right. Diane E. Courselle, Struggling with Deliberative Secrecy,
Jury Independence, and Jury Reform, 57 S.C.L. REV. 203, 215-18 (2005). Because the
right is fundamental, and therefore observed in every state and federal court in the
nation, but unevenly applied, the issue presented is of national significance.
The lower courts, in short, are split on whether defendants enjoy the right to
private jury deliberations over evidence that could have been examined in the privacy
of the jury room, but that must be examined in the courtroom. Indeed, the split exists
even within some of the decisions addressing the issue. However, the fundamental
right to private jury deliberations in the courtroom should not be applied differently
across state and federal jurisdictions.
II.

THIS CASE IS A SUITABLE VEHICLE FOR THE COURT TO
RESOLVE THE QUESTION PRESENTED.

This case provides a suitable vehicle for this Court to resolve the question
presented. First, the facts of the case are well suited for a full analysis of the issue.
Second, there is no procedural barrier to reaching the issue. Third, the courts below
squarely addressed and resolved the issue. Indeed, as the facts are not in dispute, this
Court can decide the issue as a matter of law. Fourth, the case does not involve
overwhelming evidence such that the analysis of the error can be avoided on the
ground that it is harmless.
Initially, the facts of the case present a suitable vehicle for a full analysis of the
issue. This case concerns a traffic stop. Traffic stops are frequently recorded by the
-15-

police. Here, the state trooper who conducted the stop audiovisually recorded the
preliminary traffic violations that triggered the stop. The events that occurred after the
stop, including a field sobriety test, were also audiovisually recorded. A redacted copy
of the video, which removed inadmissible evidence, was put on a DVD that could be
played on a computer or DVD player. The 12 minute video was played once at the trial.
The other relevant evidence at the trial consisted of the Trooper’s testimony, and the
Petitioner’s testimony which disputed the Trooper’s version of the events.
The deliberating jury asked to review the video again. This reveals that the
evidence of guilt was not overwhelming because, logically, there would have been no
need to review the video had the evidence been overwhelming and not closely balanced.
Furthermore, the impartial video was the key evidence at the trial because the trooper
and Petitioner provided conflicting testimony, and because the video captured the core
events that led to the charge. The impartial video allowed the jury be an eyewitness
to these events.
No objection to allowing the jury to view the video without court supervision or
restrictions was voiced by either party. More specifically, there was no objection that
the viewing should be supervised in order to prevent overemphasis of the evidence, so
the jury would not inadvertently view matters it should not consider, or so the jury
would not inadvertently damage or destroy the evidence. Therefore, had playback
equipment, such as a laptop computer or DVD player, been available in the jury room,
the jury could have watched the recording in the privacy of the jury room, and engaged
in secret deliberations while doing so. However, the equipment needed for the playback
was available for use only in the courtroom. The jury was therefore brought into the
courtroom for its review of the video.

-16-

In the courtroom, the trial judge ordered everyone to remain silent during the
viewing of the video. Without explaining why it was necessary, the trial judge allowed
Petitioner, the attorneys, and the alternate jurors to remain in the courtroom during
the viewing. The option of allowing the jury to review the recording in a closed
courtroom in private was given no consideration by the judge, nor was input requested
from the parties on how the review should be conducted. After viewing the 12 minute
video one time under these restrictions, the jury retired for further deliberation in the
jury room, and later found defendant guilty of aggravated driving under the influence
of alcohol.
The unpreserved question of whether the jury should have been allowed to
deliberate in private in the courtroom while rewatching the video was reviewed for
plain error by the Appellate Court of Illinois. As previously noted, the Illinois and
federal plain error rules are “not significantly different.” App. 6a. The appellate court
found that the failure to allow the jury to watch the video privately in the courtroom
had amounted to structural error, and ordered a new trial. The appellate court
reasoned that the trial court’s restrictions and supervision, along with the presence of
the non-jurors while the deliberating jurors rewatched the video, unnecessarily chilled
the jury’s deliberation, and thereby tainted its verdict (Appendix B).
The Supreme Court of Illinois reviewed for plain error. That court found that no
error occurred because the trial court had discretion to control how the video would be
rewatched in the courtroom. The Supreme Court of Illinois also concluded that due to
the trial court’s order that the jury remain silent, no intrusion into the deliberations
occurred because the jury had not actually been deliberating while rewatching the
video. The court also stated that there is an “understanding” that deliberations can

-17-

only be conducted in the jury room “and no other.” App. 12a. The court reversed the
decision of the appellate court and affirmed Petitioner’s conviction (Appendix A).
Under these circumstances, this case provides a suitable vehicle for this Court
to resolve the question presented. First, there is no procedural barrier to reaching the
issue. The issue was reviewed for plain error in the courts of Illinois. As noted by the
Supreme Court of Illinois in its opinion, the Illinois and federal plain error rules are
“not significantly different.” App. 6a. The plain error aspect of the issue can therefore
be addressed by this Court because it has already been fully addressed by the courts
below.
Second, the courts below squarely addressed, factually and legally, the
substantive issue of whether the right to private jury deliberations applies only when
the jury is deliberating in the jury room. Third, the case does not involve overwhelming
evidence such that the analysis of the error can be avoided on the ground that it is
harmless. Moreover, as the facts are not in dispute, this Court can decide the issue as
a matter of law. Accordingly, through this case, this Court can clarify whether the
cardinal principle that jury deliberations shall remain private and secret applies only
to jury deliberations held in the jury room, or whether the right extends to jury
deliberations that could have been conducted in the jury room but that must be
conducted in another room due to obstacles with using the jury room.
III.

THE QUESTION PRESENTED IS IMPORTANT AND WILL
RECUR.

The question presented is important and will recur. The question presented is
important because the jury deliberation stage of a criminal trial is a pivotal stage of
the proceeding since that is where the consequential decision of guilt or innocence is
made. To be sure, the jury deliberation stage of a criminal trial is not a critical stage
-18-

of a proceeding in the sense that the defendant and counsel must be allowed to be
present during the deliberation. But, because it is so central to the most important
decision to be made by the jury, and because the jury’s decision will likely be one of the
most crucial, if not the most crucial trial decision for a defendant, jury deliberations
that could have been held in the jury room, but that must occur outside the jury room
out of necessity, should be accorded the protection of privacy in order to guarantee that
the guilt or innocence determination will be fair. Put differently, even if every other
stage of a criminal trial is conducted in flawless fairness, it will still not be possible to
say a defendant received a fair trial if the jury’s deliberation was tainted by an
unwarranted restraint on its ability to freely deliberate in private while reviewing key
evidence. Thus, the question presented is important because the jury deliberation stage
of a criminal trial is a pivotal stage of the proceeding.
The issue is also likely to recur. The case law cited in this petition demonstrates
the frequent recurrence of the question. Furthermore, the issue is likely to recur due
to the ever increasing use of video evidence, the high value of video evidence to the
truth seeking function, and the failure of court systems to take adequate steps to
provide equipment in the jury room for the review by deliberating juries of video
evidence. More specifically, the issue is likely to recur because recording cameras are
now everywhere. Be they cell phone cameras, surveillance cameras, door bell cameras,
body cameras, or vehicle dashboard cameras, these video recording devices are
everywhere and in large numbers. Consequently, crimes are increasingly being
recorded by these devices. Thus, as reaffirmed by the recent events at the Capitol,
video evidence has become central to the investigation and determination of whether
a crime has occurred, and to the identification of persons who may have committed

-19-

crimes. Thus, the use of of video recordings as key evidence at criminal trials is likely
to increase.
Further, as demonstrated by this case, video recordings can be particularly
valuable in the determination of guilt or innocence. This is so because video evidence
is a unique in that it can place a jury at the scene of the crime, and allow the jury to
view the crime in the shoes of a direct witness. Thus, for deliberating juries, high
quality video evidence can be vastly superior to the unreliable, incomplete, or biased
memories of witnesses trying to paint a picture with their testimony. Even a witness
with total recall and an illuminating vocabulary cannot match what the eyes see, and
what the ears hear. The only other type of evidence that may be as compelling as video
evidence to a deliberating jury in a criminal trial is deoxyribonucleic acid evidence. As
such, due to its unique quality of allowing a jury to witness the crime, it is likely that
deliberating juries will continue to ask to rewatch video evidence.
Lastly, as demonstrated by this case and a number of other cases cited in this
petition, court systems are not taking adequate steps to provide equipment in the jury
room for the review by deliberating juries of video evidence. Therefore, if court systems
continue to deprive juries of video playback equipment in jury rooms, and force juries
to rewatch the videos under supervision and with restrictions in the courtroom, as in
this case, the issue presented by this case will continue to recur. Accordingly, the
question presented by this case is important and likely to recur.
IV.

THE DECISION BELOW IS INCORRECT.

The decision below is incorrect for a number of reasons. First, the opinion of the
Supreme Court of Illinois is incorrect in its finding that no intrusion into the jury’s
deliberation occurred because the jury was not deliberating at the time it was viewing

-20-

the video. App. 10a-12a. The Supreme Court of Illinois reasoned that no deliberations
were occurring at the time because the deliberations had been temporarily suspended
by the trial court’s order directing everyone to remain silent. Id. However, an order
that incorrectly chills a jury’s deliberation should not be overlooked when the jury was
not deliberating due to the incorrect order. The logic of the Supreme Court of Illinois
is faulty, dangerous, and contrary to Olano because it opens the door to unwarranted
intrusion by a trial judge into jury deliberations. The analysis of the Supreme Court
of Illinois on this point also failed to recognize that review of a recording by a
deliberating jury constitutes “a part of the jury’s deliberations” (App. 28a), and a
“continuation of the deliberations” (Magnano, 181 Wash. App. at 692).
Second, the decision of the Supreme Court of Illinois was incorrect to the extent
it failed to offer a reasonable justification for stripping Petitioner of the right to private
jury deliberations when evidence that could have been examined in private in the jury
room, had to be examined in the courtroom. Instead, the Supreme Court of Illinois
based its ruling on a per se rule which holds that only deliberations conducted in the
jury room are entitled to privacy. App. 12a. This flat rule, however, misinterprets
Olano because Olano did not limit application of the right to private jury deliberations
to only the jury room. Olano, 507 U.S. at 737.
Moreover, and as previously noted, the logic of the per se rule is flawed because,
if an intrusion by the trial court would not be tolerated into deliberations being
conducted in the jury room, the same type of intrusion should not be tolerated simply
because the jury had to examine the evidence in another room due to obstacles with
using the jury room. As also explained above, if the right to private jury deliberations

-21-

is deemed to apply only in the jury room, the importance of the location where the jury
deliberates will be elevated over the importance of the right itself, without justification.
The Supreme Court of Indiana and the Ninth Circuit understood this when they
endorsed the use of closed courtrooms for private jury deliberations due to obstacles
with reviewing the evidence in the jury room. Richey, 426 N.E.2d at 397; Benna, 578
F.2d at 271. Accordingly, the decision of the Supreme Court of Illinois is incorrect and
should be rejected by this Court because it misapplies this Court's ruling in Olano,
because it undermines the reliability of the guilt or innocence determination, and
because it will further divide the lower courts on the question presented.
CONCLUSION
For the foregoing reasons, petitioner Joseph A. Hollahan respectfully prays that
a writ of certiorari issue to review the judgment of the Supreme Court of Illinois.
Respectfully submitted,
~~~T~~
THOMAS A. KARALIS
Counsel of Record
Deputy Defender
Office of the State Appellate Defender
Third Judicial District
770 E. Etna Rd.
Ottawa, IL 61350
(815) 434-5531
3rdDistrict@osad.state.il.us
COUNSEL FOR PETITIONER
Of Counsel:
Santiago A. Durango
Assistant Appellate Defender

-22-

